                    U.S. DEPARTMENT OF ENERGY

                   OFFICE OF INSPECTOR GENERAL




                     REPORT ON INSPECTION OF

                LOS ALAMOS NATIONAL LABORATORY'S

              SYSTEM FOR CONTROLLING COST OVERRUNS

                   ON WORK-FOR-OTHERS PROJECTS




   The Office of Inspections wants to make the distribution of
   its inspection reports as customer friendly and cost
   effective as possible. Therefore, we are making this report
   available electronically through the Internet at the
   following alternative addresses:

          Department of Energy Headquarters Gopher
                     gopher.hr.doe.gov

       Department of Energy Headquarters Anonymous FTP
                   vml.hqadmin.doe.gov

   We are experimenting with various options to facilitate
   inspection report distrubution. Your comments would be
   appreciated and can be provided on the Customer Comment Form
   attached to the Inspection Report.




Report No.: DOE/IG-0369                   Office of Inspections
Date Issued: March 22, 1995               Washington, DC 20585
                     REPORT ON INSPECTION OF
                LOS ALAMOS NATIONAL LABORATORY'S
              SYSTEM FOR CONTROLLING COST OVERRUNS
                   ON WORK-FOR-OTHERS PROJECTS


                        TABLE OF CONTENTS
                                                           Page
I.    INTRODUCTION AND PURPOSE .............................   1

II.   SCOPE AND METHODOLOGY ................................   2

III. SUMMARY RESULTS OF INSPECTION ........................    2

IV.   BACKGROUND ...........................................   5

V.    RESULTS OF INSPECTION ................................   8

      AL'S IMPLEMENTATION OF WFO COST MONITORING
        AND CONTROL PROCEDURES .............................   8

      LANL'S MANAGEMENT SYSTEM FOR CONTROLLING COST
        OVERRUNS ON WFO PROJECTS ........................... 14

      PARTIAL FINANCING OF A LANL WFO PROJECT
        DURING FISCAL YEAR 1992 ............................ 24
                                #=1
                 U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL
                       OFFICE OF INSPECTIONS
                       WASHINGTON, DC 20585


                      REPORT ON INSPECTION OF
                 LOS ALAMOS NATIONAL LABORATORY'S
               SYSTEM FOR CONTROLLING COST OVERRUNS
                    ON WORK-FOR-OTHERS PROJECTS



I.    INTRODUCTION AND PURPOSE

     The Department of Energy's (DOE) Office of Inspector
General issued Report No. DOE/IG-0335, "Report on
Inspection of Selected Intelligence and Special Access
Program Work-for-Others Projects," on October 8, 1993. In
the report, we noted that Los Alamos National Laboratory
(LANL) had areas where internal controls involving
work-for-others (WFO) projects were not evident or were not
working as intended. For example, LANL management told us
that, should the costs of a WFO project exceed funding
available from the customer, the cost overrun amount would
be charged to an overhead account, and later be
inappropriately recharged by cost corrections to other
projects.

     The purpose of this inspection was to review LANL's systems
for controlling cost overruns on, and ensuring financial
integrity of, WFO projects. We also reviewed Albuquerque
Operations Office's (AL) implementation of internal
processes for monitoring costs and ensuring financial
integrity for LANL's WFO projects.

      The objectives of this inspection were to:

     o    Determine the effectiveness of LANL's management
system for controlling cost overruns on WFO projects.

     o    Determine if LANL has developed and implemented a
management system that will ensure the funding
integrity of WFO projects, in accordance with
applicable DOE orders and Article III, CL.4, of
Contract No. W-7405-ENG-36.

     o    Determine the extent of AL's contract administration
activities regarding these management systems.


II.   SCOPE AND METHODOLOGY

     LANL, in accordance with AL guidance, is to report monthly
on WFO projects' cost overruns (LANL uses the term
"undistributed costs"). The scope of our inspection
included all WFO projects reported by LANL as having cost
overruns during Fiscal Years (FY) 1992 and 1993. From this
universe, we focused on selected WFO projects that had
cost overruns for two or more consecutive months.

Because of the sensitive nature of some WFO projects, this
report does not identify specific customer agencies
associated with the reviewed projects. Instead, we refer
to the projects by the program code assigned by LANL.

In conducting the inspection, we interviewed officials and
obtained information during visits to the Albuquerque
Operations Office and the Los Alamos National Laboratory.
We reviewed LANL's management systems for controlling cost
overruns on, and ensuring funding integrity of, WFO
projects. We also performed a detailed review of
applicable financial transactions for the selected WFO
projects.

Additionally, we reviewed the extent of AL's contract
administration activities in monitoring costs and ensuring
financial integrity for LANL's WFO projects. We also
examined specific information used by AL in conducting
these activities.

This inspection was conducted in accordance with Quality
Standards for Inspections issued by the President's Council
on Integrity and Efficiency.


III. SUMMARY RESULTS OF INSPECTION

     The following is a brief summary of the findings included
in this inspection:

     o    We found that AL was not enforcing provisions of a
special contract clause which allows LANL, in certain
situations, to incur cost overruns on WFO projects.
In the event that work on a WFO project is intended to
be continuous but funding authorization are not
provided to LANL on a timely basis, DOE can authorize
the University to continue work on the project at the
University's expense with the University's money.
Since AL was not enforcing the provision that the
University use its own funds, DOE inappropriately
funded the expenses incurred by LANL for WFO cost
overruns.

          We also noted, and AL-Financial Management Division
(FMD) officials confirmed, that LANL was not being
required to fully comply with the WFO cost reporting
requirements specified in a November 30, 1992,
memorandum to contractors under the cognizance of AL.
As a result, AL-FMD was generally not provided
adequate information regarding the causes of, or
corrective actions for, WFO cost overruns.

          In our opinion, AL-FMD had only partially implemented
cost monitoring and control procedures relative to
LANL's WFO projects, including actions to ensure the
timely settlement of applicable cost overruns. We
believe AL-FMD officials should review LANL's WFO cost
overruns incurred after October 1, 1992, and recover
from the University of California the amounts of any
cost overruns not already properly settled.

     o    During our review of selected WFO projects at LANL, we
identified WFO cost overruns of $104,918 in FY 1992
and $133,533 in FY 1993. These cost overruns,
contrary to DOE Order 2200.6A, were then
inappropriately recharged by invalid cost corrections
to DOE program accounts and/or other WFO customers.

          We further noted that other selected WFO cost
overruns reported by the Laboratory had been properly
recharged, but without adequate written documentation,
to DOE program accounts and/or other WFO customers.
We also found that LANL personnel did not always
follow selected procedures in LANL's Financial
Management Handbook, and that these procedures did not
require LANL technical and financial personnel to
maintain adequate supporting documentation for cost
corrections.

          Based on these examples, it is our opinion LANL's
management systems for controlling cost overruns on
WFO projects, which were in use during both Fiscal
Years 1992 and 1993, reflected an absence, or lack of
implementation, of selected management controls. We
believe that necessary management controls, properly
implemented, would enhance the systems' effectiveness.

     o    Laboratory Directed Research and Development (LDRD) is
a DOE sponsored program which provides multiprogram
laboratories an opportunity to fund new and highly
innovative research activities with revenues collected
through the program. Due to an overcollection of FY
1992 LDRD revenues, LANL rebated $3,500,000 to
selected LANL accounts and projects.

We found, for the FY 1992 LDRD rebate, that LANL had
rebated $288,812, the entire amount for a category of
WFO projects, to one WFO project within this category.
We calculated that, if the rebate was prorated to all
WFO projects in the category, the project should have
only received a rebate of approximately $46,000.
Therefore, other WFO customers' projects within this
category were inappropriately charged approximately
$243,000, while the one WFO project's funds were
improperly supplemented by the same amount.

          LANL management actions were not in accordance with
guidance in the then DOE Order 2200.6. While LANL may
not be able to go back and correct the FY 1992 LDRD
rebate, we believe that future rebates for LDRD
overcollections should be refunded, in proportionate
shares, to all WFO customers in the same manner in
which LDRD funds were collected.

     The Director, AL-Financial Management Division, provided
comments on the report's findings and recommendations. The
Director concurred with our recommendations and provided
additional comments on actions that have been, or will be,
taken by AL and LANL.

     The Director also stated that LANL had, in FY 1994,
instituted more stringent cost monitoring and control
procedures for the WFO program. LANL's WFO analysts now
routinely close all WFO projects to charges when the
projects are 90 percent costed and committed. (LANL
previously closed all WFO projects which were 95 percent
costed and committed.) The analysts review the
status of these projects at least twice weekly and
coordinate with divisional financial analysts to assure
that additional work "reflects" the projects' remaining
funds. The Director stated that this control has reduced
WFO cost overruns considerably.

     The Director further stated that LANL will bring a new time
and effort system on line in FY 1996. The system will
record full time equivalent labor costs weekly; the system
currently in use only records these costs at month-end.
The Director expects further reductions in the number of
WFO cost overruns once the new time and effort system is
operational.

     The results of the inspection are discussed in more detail
in Section V.


IV.   BACKGROUND

     The Department of Energy performs work-for-other Federal
agencies either directly or through DOE's management and
operating (M&O) contractors. In this manner, other Federal
agencies can take advantage of DOE's vast and unique
research capabilities. DOE also benefits through better
and more continuous use of its facilities and personnel.

     Most WFO work within DOE is authorized under the Economy
Act of 1932. The Act allows an agency to place an order
for goods and services from another agency.

      DOE and AL WFO Guidance

     DOE Order 4300.2B, "Non-Department of Energy Funded Work
(Work-for-Others)," dated July 16, 1991, established DOE
policy, procedures, and responsibilities for review,
acceptance, and monitoring of non-DOE funded work performed
under DOE contracts.

      AL issued an implementing order, AL Order 4300.2B, on
September 16, 1992. This supplemental directive does not
change any requirements contained in DOE Order 4300.2B, but
does contain administrative and contractual guidance.

     DOE Order 2200.6A, "Financial Accounting," Chapter IX,
Reimbursable Work, Revenues, and Other Collections, dated
January 7, 1993, and its predecessor, established DOE
policy and general procedures for accounting for
reimbursable work, one category of which is WFO. DOE's
policy is to accept reimbursable agreements for its goods
and services and to perform work-for-others on a
reimbursable basis, provided legal and regulatory authority
to perform the reimbursable work exists and the Department
is capable of complying with the requirements of the legal
authorities relied on. Furthermore, work-for-others must
not impede the primary functions and responsibilities of
the performing activity, and budgetary resources for
performing reimbursable work must be available from the
customer.

     AL issued a memorandum on "Cost Overruns on Non-DOE Funded
Work" to all integrated contractors under its cognizance,
including LANL, on November 30, 1992. The memorandum
presented AL's policy guidance on cost overruns for non-DOE
funded work and was to be effective upon receipt by the
respective contractors.

AL-FMD subsequently issued an internal procedure (Document
P0050R00), entitled "Monitoring and Controlling the Costs
of Non-DOE Funded Work," on April 2, 1993. This internal
procedure was updated and reissued as Document P0050R01 on
November 15, 1993. The purpose of this procedure was to
ensure (1) that non-DOE funded work is not performed in
advance of receiving budgetary resources, (2) that costs
incurred against individual work orders do not exceed the
budgetary resources authorized, and (3) that integrated
contractor cost overruns recorded on AL's books are
accurately recorded and promptly collected from the
contractor's parent organization.

     Contractual Guidance

The University of California operates DOE's Los Alamos
National Laboratory under Contract No. W-7405-ENG-36.
The contract was substantially modified (Modification No.
M359), with an effective date of October 1, 1992.
Prior to Modification No. M359, the contract's
work-for-others clause, CLAUSE 66 D USE OF DOE FACILITIES
FOR NON-DOE FUNDED WORK, stated that the University could
perform work-for-other Federal agencies provided the work
was related to the mission of the contract, was approved in
advance by the Contracting Officer, and was performed
consistent with the terms of the contract and other
applicable DOE rules and regulations.

     We did not identify a contract clause, prior to
     October 1 1992, that specifically required LANL to have a
system of management controls. However, CLAUSE
11-ACCOUNTING AND FINANCIAL RECORDS, Paragraph (h),
Internal Audit, did require LANL to perform an internal
audit program consistent with the guidelines contained in
the Institute of Internal Auditors publication "Standards
for the Professional Practice of Internal Auditing,"
(Standards). Part 300 of the Standards, Scope of Work,
states "the scope of the internal audit [work] should
encompass the examination and evaluation of the adequacy
and effectiveness of the organization's system of internal
control (emphasis added) . . . ."

     Modification No. M359, Contract No. W-7405-ENG-36,
     replaced the previous WFO clause with Article III,
CL.4-WORK-FOR-OTHERS (SPECIAL). This clause specifies that
the University may perform non-DOE funded work-for-others,
including other Federal agencies, using DOE facilities and
resources and LANL employees. The work must be:
(1) related to the mission of the contract or within any
special capabilities of LANL, (2) accepted by the
University and funded by the customer agency or sponsor in
accordance with University policies and procedures approved
by the Contracting Officer, and (3) performed consistent
with the terms of the contract.

     Article III, CL.4(b) provides guidance in the event that a
WFO project is intended to be continuous, but funding
authorizations are not provided to LANL on a timely basis.
DOE authorizes the University to continue work at the
University's expense with the University's money. In
effect, this clause allows LANL, in certain situations, to
incur cost overruns on WFO projects which would otherwise
be prohibited by DOE Order 2200.6A. However, LANL can only
incur cost overruns at the University's risk. If the
customer agency does not subsequently provide funding to
cover the cost overruns, the University should absorb them.

Modification No. M359 also added the following clause,
ARTICLE VII, CL.18 - MANAGEMENT CONTROLS (JAN 1992)* DEAR
970.5204-20. This clause states, in part, "The University
shall be responsible for maintaining, as an integral part
of its organization, effective systems of management
controls . . . to reasonably ensure that . . . all
collections accruing to the University in connection with
work under this contract, expenditures, and all other
transactions and assets are properly recorded, managed and
reported; and financial, statistical, and other reports
necessary to maintain accountability and managerial control
are accurate, reliable, and timely."


V.   RESULTS OF INSPECTION

     AL'S IMPLEMENTATION OF WFO COST MONITORING AND CONTROL
PROCEDURES

     We found that AL-FMD's contract administration activities
were not adequate since the division had only partially
implemented internal cost monitoring and control procedures
relative to LANL's WFO projects. Further, AL-FMD was not
requiring LANL to fully comply with the cost reporting
requirements specified in a November 30, 1992, memorandum
to contractors under the cognizance of AL.

     For example, we found that AL was not enforcing provisions
of a special contract clause which allows LANL, under
certain circumstances, to incur cost overruns on WFO
projects. Under this provision, LANL may not charge to a
DOE budgetary resource costs incurred for non-DOE funded
work which exceed obligational authority. Therefore, the
University, not DOE, should be at risk if additional
customer funding is not subsequently provided.

     AL's Guidance on Cost Overruns

     AL's Assistant Manager for Management and Administration
issued a memorandum entitled "Cost Overruns on Non-DOE
Funded Work" to its M&O contractors, including LANL, on
November 30, 1992. In the memorandum, AL reemphasized that
contractors under the cognizance of AL should provide
effective internal controls to ensure that costs of non-DOE
funded work were absolutely limited to the available
funding resource and that no work was performed on non-DOE
projects in advance of DOE authorizing the work. The
memorandum further directed the contractors to ensure that
all costs of non-DOE funded work were clearly distinguished
from those of DOE programs. This guidance was consistent
     with that contained in the then DOE Order 2200.6, Chapter IX.

AL also stated that, in the unlikely event of
non-compliance with the above policies, the contractor
should:

     "- Record all costs for non-DOE funded work which
are in excess of obligational authority for
that work as accounts receivable from the
contractor's parent organization in the month
incurred in accordance with the attached
guidance. Contractor has 60 days to perform
an administrative review, after which time,
the contracting officer shall provide
direction on the disposition of the
receivable. Such costs shall not be
transferred to AL; and

     "- Report all costs by individual work order for
non-DOE funded work which exceed obligational
authority in a given month to the Director,
FMD, AL, as soon as determinable, but no later
than ten working days following the last day
of the month in which the costs were incurred.
For each incident reported, identify the DOE
approved funding source and include a
statement as to the cause of the overrun and
the planned corrective action.   A negative
report is required."

     AL's Internal Cost Monitoring and Control Procedures

     Consistent with DOE Order 2200.13, "Oversight of Integrated
Contractor Financial Management," AL-FMD issued an internal
procedure, "Monitoring and Controlling the Costs of Non-DOE
Funded Work," Document Number P005OR00, on April 2, 1993.
This procedure was amended by Document Number P0050R01,
dated November 15, 1993.

     This internal procedure stated that, as part of FMD cost
monitoring, AL's Chief, Reimbursement and Travel Section,
should "Electronically (via All-In-1) notify the Chief,
Financial Oversight and Analysis Branch, of all cost
overruns remaining in BSC [Balance Sheet Code] 1419 for
sixty days by identifying the order number, the amount of
the overrun and the date originally reported."

     The procedure further stated that, as part of providing FMD
cost control, AL's Chief, Financial Oversight and Analysis
Branch, should "Prepare and issue a memorandum (Attachment
1) to the cognizant administrative contracting officer for
the M&O/integrated contractor, directing disposition of the
delinquent account receivable within two weeks after
notification by the FMD Fiscal Operations Branch,
Reimbursements and Travel Section."

     Lack of AL-FMD Action on WFO Cost Overruns

     Per the previously cited November 30, 1992, memorandum,
LANL is to report, to the AL-FMD Director, all costs by
individual work order for non-DOE funded work (including
WFO projects) which exceeds obligational authority in a
given month. To accomplish this requirement, LANL uses the
"List of Program Codes with Undistributed Costs," which
reports those "undistributed costs" that exceed funding
provided by WFO and other customers.

     In accordance with this memorandum, LANL has 60 days to
perform an administrative review to determine if the
"undistributed costs" are valid charges against the WFO
project (i.e., a cost overrun) or invalid charges which
should be recharged to another program code(s). If the
"undistributed costs" are not resolved within the 60 day
timeframe and remain in accounts receivable (contractor's
BSC 1419), the administrative contracting offices are to
provide direction on the disposition of the receivables.

         Article III, CL.4(b), Contract No. 7405-ENG-36, Modification
No. M359, provides guidance in the event that work on a WFO
project is intended to be continuous, but funding
authorizations are not provided to LANL on a timely basis.
DOE authorizes the University to continue work at the
University's expense with the University's money. In
effect, this clause allows LANL, in certain situations, to
incur cost overruns on WFO projects, but at the
University's own risk. If the customer agency does not
subsequently provide funding to cover the cost overruns,
the University should absorb these overruns.

     The administrative contracting officer, in order to dispose
of cost overruns remaining in accounts receivable beyond 60
days, should, therefore, direct LANL to dispose of the cost
overruns by either obtaining reimbursement from the
University or offsetting a future payment to the
University. AL has taken the position that LANL should
settle these cost overruns within two weeks of the
contractor being notified by the administrative contracting
officer.

     During our review of FY 1993 "undistributed cost" lists
submitted by LANL, we noted that WFO Program Code R51A
(Funding Document DTFA03-83-A-00321) reported a cost
overrun for four consecutive months as follows:

          April          May            June          July

        $71,027.12    $68,748.31    $172,785.03    $6,113.78

     We confirmed that AL's Chief, Reimbursements and Travel
Section, had not provided appropriate notification of these
cost overruns as prescribed by Document Number P0050R01.
The Chief, Financial Oversight and Analysis Branch,
therefore, did not have information needed to prepare and
issue appropriate disposition information to the cognizant
administrative contracting officer. Lack of management
action was the only explanation provided by AL-FMD
officials for not implementing applicable internal cost
monitoring and control procedures.

     As a result, WFO Program Code R51A cost overruns were not
disposed of in a timely manner. DOE, rather than the
University, bore the expense of the cost overruns not
properly settled.

     LANL Not Required to Fully Comply With AL-FMD Guidance

     The previously cited November 30, 1992, memorandum required
LANL to report, by individual work order (i.e., program
code), all costs for non-DOE funded work (including WFO)
which exceeded obligational authority in a given month.
LANL did not start submitting these monthly reports until
March 17, 1993, which reported "undistributed costs" for
February 1993.

Another requirement of the November 30, 1992, memorandum
was that LANL, for each incident reported, should include a
statement as to the cause of the overrun and the planned
corrective action. Generally, LANL reported "cost
validation in process" to satisfy this requirement.

     After being reported on the listing for one or two months,
program codes with "undistributed costs" would normally not
be reported on the next month's listing. Subsequent
listings did not contain any mention of corrective actions
or further explanations as to the causes for "undistributed
costs."

     AL-FMD officials stated that LANL's reporting of program
codes with "undistributed costs" did not fully comply with
the guidance issued on November 30, 1992. These officials
further stated that they did not know what the term "cost
validation in process" meant. Thus, AL-FMD management was
generally not provided with any meaningful information
relative to the causes of, or corrective actions for,
"undistributed costs." The officials could not recall ever
directing LANL to comply more fully with AL requirements or

asking for more information than was provided on the
listings.

The AL-FMD officials further stated that, to their
knowledge, LANL had not reported any actual WFO cost
overruns during FY 1993. As discussed elsewhere in this
report, we confirmed WFO cost overruns during FY 1993.

     Without adequate reporting by LANL, and without performing
a detailed review of WFO costs, AL-FMD did not have
sufficient information to properly monitor LANL's WFO cost
overruns. Again, lack of management action was the only
explanation provided by AL-FMD officials for not ensuring
that LANL complied with specified reporting requirements.

     Conclusion

     We found that AL was not enforcing provisions of a special
contract clause which allows LANL, in certain situations,
to incur cost overruns on WFO projects. In the event that
work on a WFO project is intended to be continuous but
funding authorizations are not provided to LANL on a timely
basis, DOE can authorize the University to continue work on
the project at the University's expense with the
University's money. Since AL was not enforcing the
provision that the University use its own funds, DOE
inappropriately funded the expenses incurred by LANL for
WFO cost overruns.

     We also noted, and AL-Financial Management Division (FMD)
officials confirmed, that LANL was not being required to
fully comply with the WFO cost reporting requirements
specified in a November 30, 1992, memorandum to contractors
under the cognizance of AL. As a result, AL-FMD was
generally not provided adequate information relative to the
causes of, or corrective actions for, WFO cost overruns.

     In our opinion, AL-FMD had only partially implemented cost
monitoring and control procedures relative to LANL's WFO
projects, including actions to ensure the timely settlement
of applicable cost overruns. We believe AL-FMD officials
should review LANL's WFO cost overruns incurred after
October 1, 1992, and recover from the University of
California the amounts of any cost overruns not already
properly settled.

     Recommendations

     We recommend that the Manager, Albuquerque Operations
Office:

     1.   Direct AL-FMD officials to fully implement cost
monitoring and control procedures relative to LANL's
WFO projects, including actions to ensure the timely
settlement of applicable cost overruns in the future.

         2.      Direct AL-FMD officials to review LANL's "undistributed
costs" reported since Article III, CL.4 was added to
Contract No. W-7405-ENG-36, and recover from the
University of California the amounts of any cost
overruns, including those related to Program Code
R51A, not already properly settled.

         3.      Direct LANL to fully comply with AL's November 30, 1992,
guidance on reporting WFO costs which exceed
obligational authority in a given month.

     The AL-FMD Director concurred with Recommendations 1
through 3. The Director stated that several corrective
actions are being taken, or have been taken, since the
inspection was conducted. These actions are provided
below.

     Recommendation 1. "The current procedures on WFO cost
overruns will be modified by January 1, 1995, to require
the team leader of the Reimbursement and Travel Team to
certify to the Director, Financial Management Division
(FMD) through the Chief, Fiscal Operations Branch, that
applicable cost overruns are settled in a timely manner."

     Recommendation 2. "The FMD review process for monitoring
and controlling WFO cost overruns was fully implemented as
of the February 1994 reporting period. However, a review
of LANL's undistributed costs reports since Article III,
CL. 4 was added to the University of California contract
will be performed to ensure timely settlement of applicable
cost overruns prior to February 1994. The review is
scheduled to be completed by January 1, 1995."

     Recommendation 3. "AL will issue a directive to LANL by
January 1, 1995, to fully implement the requirements of the
November 30, 1992, guidance on reporting WFO cost overruns.
Since the OIG review, LANL has taken steps to strengthen
the internal controls for the WFO programs."

     LANL'S MANAGEMENT SYSTEM FOR CONTROLLING COST OVERRUNS ON
WFO PROJECTS
     We concluded LANL's management system for controlling cost
overruns on WFO projects could be more effective. The
system in use during Fiscal Years 1992 and 1993 reflected
an absence, or lack of implementation, of selected
management controls.

     DOE Order 2200.6A states that no reimbursable work shall
continue and no costs shall be incurred beyond the amount
of funding provided in the reimbursable agreement and
attendant modifications. Further, DOE shall not finance
reimbursable work from its own appropriations or another
customer's funds but only from the appropriation accounts
of the ordering Federal agency.

     As a result of LANL's control deficiencies and contrary to
the guidance in DOE Order 2200.6A, we identified WFO cost
overruns of $104,918 in FY 1992 and $133,533 in FY 1993.
These cost overruns were inappropriately recharged to DOE
program accounts and/or other WFO customers.

We noted that other selected WFO cost overruns reported by
the Laboratory had been ultimately recharged, without
adequate written documentation, to DOE program accounts
and/or other WFO customers. We also found that LANL
personnel did not always follow selected procedures in
LANL's Financial Management Handbook, and that these
procedures did not require LANL technical and financial
personnel to maintain adequate supporting documentation for
cost corrections.

     A discussion of WFO projects with cost overruns and/or
management control deficiencies follows.

     WFO Program Code R93P Cost Overruns in FY 1992

     A WFO project identified as Program Code R93P was reported
for two consecutive months (June - July 1992) on LANL's
"undistributed cost" reports sent to AL. This reimbursable
WFO project, titled "Reactive Armor Explosives System," was
managed by LANL's "M" Division, where most of the work was
also performed. According to LANL officials, the project
was not funded again until May 1993. During our review, we
identified $104,918 in FY 1992 cost overruns as described
below. The cost overruns included $42,764 of equipment
costs and $62,154 of labor charges.

          Transfer of WFO Program Code R93P Equipment Costs

     During May and June 1992, LANL issued five equipment
purchase orders for WFO Program Code R93P as follows:

       Purchase Order No.           Estimated Cost

         1-KB2-1937F-1                 $ 4,300
         5-KH2-1955F-1                   5,500
         2-CS2-2068E-1                  12,000
         2-CS2-2069E-1                  13,500
            5-PT2-2088E-1                   4,675

                Total                     $39,975
                                          MMMMMMM

All five purchase orders referenced Program Code R93P as
the project providing funding for the equipment. The
resulting equipment purchases, with associated burdens,
totaled $42,764.

     LANL issued a cost correction memorandum, dated July 30,
1992, to move these equipment costs from WFO Program Code
R93P to DOE-funded Program Codes CG26 and CA11. The cost
correction memorandum stated that, because of reporting
errors, the purchase orders needed to be recoded.
Consequently, $29,757 was recoded to Program Code CG26 and
$13,007 was recoded to Program Code CA11.

     LANL officials told us these equipment costs were
transferred from WFO Program Code R93P because the
project was "overspent," (i.e., costs exceeded available
funding.) These costs were transferred to Program Codes
CG26 and CA11 because those projects were similar in
nature. Thus, the $42,764 were cost overruns which should
have been reported as such by LANL.

             Transfer of WFO Program Code R93P Labor Charges in
July 1992

     During the months of April, May, and June 1992, the
Chemical Laser Sciences Division charged a total of 2.10
full-time equivalents (FTEs), with associated labor charges
and burden costs, to Cost Center 7905, WFO Program Code
R93P. A Chemical Laser Sciences Division financial analyst
subsequently issued a cost correction memorandum on
July 22, 1992. The memorandum "corrected" the 2.10 FTEs
charged to Cost Center 7905, WFO Program Code R93P, during
April, May, and June 1992. These labor charges and related
burden costs, totaling $44,357, were recharged to Program
Code CE61, a DOE-funded program code.

     The cost correction memorandum stated that an incorrect
program code was used on Cost Center 7905 and should be
corrected. However, LANL program officials told us the
$44,357 in labor charges, and related burden costs, were
transferred because WFO Program Code R93P was overspent.

     A review of the FY 1992 Program History List by Month for
WFO Program Code R93P showed that funds for the project
were depleted in June 1992. Additional funding was not
received during the remainder of FY 1992. Therefore,
the labor charges and related burden costs, totaling
$44,357, were cost overruns which should have been reported
as such by LANL.

          Transfer of WFO Program Code R93P Labor Charges in
September 1992
     During May and June 1992, "M" Division charged 3.19 and
3.77 FTEs, respectively, with associated labor and burden
costs, to Cost Center 9107, WFO Program Code R93P. An "M"
Division financial analyst issued a cost correction
memorandum on September 18, 1992. The memorandum
"corrected" .37 May FTEs and 1.65 June FTEs of the total
FTEs charged to Cost Center 9107, WFO Program Code R93P.
These labor charges and related burden costs, totaling
$17,797, were recharged to Program Code CA13, a DOE-funded
program code.

     The cost correction memorandum stated, because of reporting
     errors, the FTEs needed to be recoded from Cost Center 9107,
Program Code R93P to Cost Center 9107, Program Code CA13.
However, LANL program officials informed us that the FTEs,
on which the cost correction was based, were transferred
because WFO Program Code R93P was overspent.

     As previously stated, the FY 1992 Program History List by
Month for WFO Program Code R93P showed that the WFO
project's funds were depleted in June 1992. The project
did not receive additional funding during the remainder of

FY 1992. Again, the labor charges and related burden
costs, totaling $17,797, were cost overruns which should
have been reported as such by LANL.

     WFO Program Code R51A Cost Overruns in FY 1993

     A WFO project identified as Program Code R51A was reported
for four consecutive months (April - July 1993) on LANL's
"undistributed cost" reports submitted to AL. Program Code
R51A was a reimbursable WFO project titled "Explosives
Detection System." The overall management responsibility
was through LANL's International Technologies Division,
with most of the work being performed by LANL's "N"
Division. During our review, we identified $133,533 in FY
1993 cost overruns as described below. The cost overruns
included $108,530 of equipment costs and $25,003 of labor
charges. (An additional finding dealing with WFO Program
Code R51A is discussed later in this report.)

          Transfer of WFO Program Code R51A Equipment Costs

     LANL Purchase Order 4-L62-X1117-2 was issued on March 27,
1992, for upgrades to equipment being used on WFO Program
Code R51A. LANL prepared a sole source justification for
these upgrades which stated funding had been approved by
the sponsoring customer agency for FY 1992, under Cost
Center 9702, Program R51A.

     Accordingly, LANL charged Cost Center 9702, Program R51A,
with $108,530 in equipment upgrades during December 1992.
The costs of the equipment upgrades consisted of $98,040
for components and $10,490 for associated burden charges.
On January 27, 1993, LANL issued a cost correction
memorandum to transfer the equipment upgrade charges to
Program Code XG97, an "N" Division Group/Division Support
Account that was subsequently charged to DOE. The cost
correction memorandum stated that the original purchase
order was inadvertently charged to Program Code R51A.

     In our closeout meeting with LANL officials, however, the
R51A Program Coordinator told us that the upgraded
equipment was used on WFO Program Code R51A and that the
costs for the upgrades were funded by the project's
customer agency. Furthermore, the Program Coordinator
stated that an error had been made when the costs were
moved to Program Code XG97. We did not identify, however,
a later cost correction transferring the charges back to
WFO Program Code R51A, even though LANL was to review
the financial transactions monthly.

     The "FY 1993 LANL Program History List by Month for WFO
Program Code R51A" showed the project's funds were depleted
in December 1992. Additional funding was not received
until March 1993. Thus, the $108,530 were cost overruns
which should have been reported as such by LANL.

            Transfer of WFO Program Code R51A Labor Charges

     Per   LANL management officials, "N" Division requested "C"
Division   to perform computer work for WFO Program Code
R51A. A    ceiling of $175,000 was placed on the costs to be
incurred   by "C" Division for this work.

     During April 1993, "C" Division charged 7.43 FTEs, with
associated labor and burden costs, to Cost Center 8003, WFO
Program Code R51A. An "N" Division financial analyst
subsequently issued a LANL Interoffice Memorandum to a "C"
Division financial analyst on June 11, 1993. The
memorandum stated that, since "C" Division costs charged to
"N" Division were $191,400, the cost ceiling overage of
$16,400 needed to be recoded. The memorandum further
stated that WFO Program Code R51A was currently closed
because costs were in excess of funds. Based on this
memorandum, another "C" Division financial analyst
subsequently issued two cost correction memorandums, both
dated July 21, 1993.

     The first memorandum "corrected" 1.24 FTEs charged to Cost
Center 8003, WFO Program Code R51A, during April 1993.
These labor charges and related burden costs, totaling
$17,627, were recharged to Cost Center 8003, Program Code
X39T. Program Code X39T is an internal cost collection
pool whose costs are reallocated as overhead to all
internal and external users of LANL's Central Computer
Facility.

     The second memorandum "corrected" 1.68 FTEs, charged to
Cost Center 8069, WFO Program Code R51A, during June 1993.
The labor charges and related burden costs, totaling
$7,376, were recharged to Cost Center 8069, Program Code
X39T.

     Both cost correction memorandums stated the entries being
corrected were coded erroneously by "C" Division. The
memorandums also stated "The detailed effort reports
maintained in each cost center have been corrected and will
be in agreement with the official financial records after
these corrections are processed." However, LANL program
officials, as well as financial analysts, told us that the
FTEs, on which the cost corrections were based, did benefit
WFO Program Code R51A. They also told us the FTEs, and
associated costs, were moved to Program Code X39T since "C"
Division had exceeded the $175,000 ceiling. A LANL
financial analyst further informed us the effort reports,
which account for labor charges, had not been corrected as
stated in the memorandums. We noted that the correction of
effort reports is a requirement of LANL Financial
Management (FM) Handbook, Part FM 4066.

     As previously stated, this WFO project had received
additional funding in March 1993. A review of the "FY 1993
Program History List by Month for WFO Program Code R51A"
showed that the project's funds were again depleted in
April 1993. Additional funding was not received until July
1993. Therefore, "C" Division labor charges and related
burden costs were recharged on the two cost correction
memorandums. These charges, totaling $25,003, were cost
overruns which should have been reported as such by LANL.

        Absence, or Lack of Implementation, of Management Controls

     Adequate controls are essential in achieving management and
program goals and in providing for full accountability over
the available resources. Management controls help to
achieve the positive aims of management and assist in
preventing negative consequences from occurring.
Notwithstanding requirements for LANL to have adequate
controls, we identified additional examples where
management controls either had not been established or
properly implemented.

          Equipment Costs Transferred Out Of, and Back Into, WFO
Program Code R51A

     LANL Purchase Order 5-EX3-6472E-1 was issued on January 15,
1993, for equipment to be used on WFO Program Code R51A.
The purchase order, which was coded to Cost Center 9702,
Program Code R51A, was for $50,250 in equipment costs and
$5,377 in additional capitalized costs. The total amount
of $55,627 was subsequently charged to WFO Program Code
R51A during April 1993. On July 29, 1993, LANL transferred
the equipment costs to Program Code Z501, a code used for
the fabrication of capital equipment. On September 8,
1993, LANL transferred the equipment costs back to WFO
Program Code R51A.

Both cost correction memorandums stated that the purchase
order was incorrectly charged and all year-to-date costs
and necessary procurement recharges should be recoded. The
"FY 1993 LANL Program History List by Month for WFO Program
Code R51A" showed that the project received additional
funds in July 1993. These funds were also expended during
July 1993; supplemental funding was not received until
September 1993. Since the equipment costs were transferred
out of, and back into, WFO Program Code R51A, we concluded
that LANL had transferred the $55,627 because the project
would have otherwise been in a cost overrun situation for
the remainder of FY 1993.

     LANL Financial Management Handbook, Part FM 4022, General
Ledger Detail, specifies the requirements for cost
correction memorandums. Cost corrections, such as those
discussed above, can easily occur since Part FM 4022 does
not require supporting documentation for the correcting
entries.

          Multiple Effort Correction

     For October through December 1992, LANL charged 6.05 FTEs
of effort to Program Code S33B. On February 24, 1993, a
LANL financial analyst issued a cost correction memorandum
to transfer the 6.05 FTEs to Program Code S33P. The
memorandum stated the original entries had been coded
erroneously by "C" Division. However, a "C" Division
program official informed us that a LANL financial analyst
had told "C" Division management that Program Code S33B was
not intended to be an active FY 1993 program code, and
therefore, the FTEs should be recoded. The program
official further stated that the labor charges were moved
to Program Code S33P because the codes were similar.

On April 15, 1993, the same LANL financial analyst issued
another cost correction memorandum that transferred 9.17
FTEs from Program Code S33P to Program Code R99X, a WFO
reimbursable project. WFO Program Code R99X was for a
Computer Application Profile Study for a customer agency.
The 6.05 FTEs originally charged to Program Code S33B were
included in the 9.17 FTEs. Again, the memorandum did not
explain why the FTEs were transferred, only that the entry
was coded erroneously by "C" Division. When interviewed, a
"C" Division program official stated that another "C"
Division official, who has since retired, had determined
that the FTEs should not have been moved to Program Code
S33P. The only plausible explanation given for recoding
the effort to WFO Program Code R99X was that "C" Division
officials had determined the labor charges were for
computer security work.


     Another LANL financial analyst issued a June 17, 1993, cost
correction memorandum that transferred 9.63 FTEs from WFO
Program Code R99X to Program Code X33P. The 6.05 FTEs
originally charged to Program Code S33B were again included
in the 9.63 FTEs. The memorandum restated the reason given
for making the two cost corrections discussed above. A "C"
Division program official told us the WFO Program Code R99X
Project Leader had determined that the labor charges did
not belong on that project. The program official also
stated that "C" Division officials had subsequently
determined the FTE labor charges should have originally
been charged to Program Code X33P. Program Code X33P was
for Mainframe Recharge (Cray) and was distributed to all
users of the Cray on a monthly basis.

     Per the above discussion, 6.05 FTEs of effort, which had
been expended during 1992, were recharged three times over
a four month period during 1993. Additionally, none of the
effected effort reports were corrected as required by LANL
Financial Management Handbook, Part FM 4066, Form B FTE
Correction. As previously stated, Part FM 4022 does not
require LANL financial analysts or program officials to
maintain supporting documentation for cost corrections,
including FTE corrections.

          Capital Equipment Charged to Program Code XG97

Capital equipment charges and associated burden costs,
totaling $69,619, were charged to WFO Program Code R51A,
Expense Code 09, in December 1992. On January 27, 1993,
these charges were transferred to Program Code XG97, an "N"
Division Group/Division Support Account which is charged to
DOE. Accountants in LANL's Property Accounting Section
told us that capital equipment should not be charged to
certain codes, including "X" program codes. They confirmed
the capital equipment costs of $69,619 had been
inappropriately moved from WFO Program Code R51A to Program
Code XG97.

     Per LANL accountants, procedures require financial
transactions to be reviewed monthly to ensure that Expense
Code 09 entries are not charged to "X" program codes.
However, these reviews often take place before, not after,
cost correction entries are recorded.

          Improper Use of "Z" Codes

     LANL Financial Management Handbook, Part FM 5063, Plant &
Capital Equipment "Z" Programs, states that the purpose of
a "Z" code is to facilitate the accumulation of costs
against job orders covering the fabrication of capital
equipment. Part FM 5063 further states that "Z" codes
should not be used for any other purpose. During our
review, we found that LANL "Z" codes were used for other
than intended purposes and were also not being closed on a
timely basis.

     Purchase Request No. 4-L61-X1117-1, dated May 15, 1991,
was for the lease/purchase of a 1.75 MEV RFP Linear
Accelerator. An internal memorandum, dated July
22, 1991, proposed a company to finance the lease/purchase
at an estimated cost of $751,585. Both documents
referenced WFO Program Code R51A as the funding source for
the accelerator. An August 9, 1991, memorandum, Subject:
Purchase Request Recode (L61-X1117-PR), spread the
estimated cost to four "Z" program codes. Since the
accelerator was being purchased and not fabricated, the
cost should not have been recoded to the four "Z" program
codes.

For example, the largest portion of the accelerator's cost,
$593,754, was recoded to Program Code Z374. Program Code
Z374 was opened on March 25, 1987, and was still shown as
an active program code on LANL's Program Codes Listing,
dated August 10, 1993. A LANL capital equipment analyst
stated that "Z" program codes are normally active for one
to three years. Program Code Z374 had been active for more
than six years and had been modified numerous times.
Additionally, Program Code Z374 had been established to
collect costs for the upgrade of an N-2 10 MEV Linear
Accelerator. In a closeout meeting with LANL officials,
program officials confirmed that the lease/purchase of the
1.75 MEV RFP Linear Accelerator was inconsistent with the
intended purpose of Program Code Z374.

     Conclusion

     During our review of selected WFO projects, we identified
WFO cost overruns of $104,918 in FY 1992 and $133,533 in FY
1993. These cost overruns, contrary to DOE Order 2200.6A,
were then inappropriately recharged by invalid cost
corrections to DOE program accounts and/or other WFO
customers.

We also noted that other selected WFO cost overruns
reported by the Laboratory had been properly recharged,
but without adequate written documentation, to DOE program
accounts and/or other WFO customers. We further found that
LANL personnel did not always follow selected procedures in
LANL's Financial Management Handbook, and that these
procedures did not require LANL technical and financial
personnel to maintain adequate supporting documentation for
cost corrections.

We believe that a requirement to maintain supporting
documentation would help prevent invalid cost corrections
such as the examples cited above. Further, supporting
documentation would also enable LANL personnel to explain,
at a later date, why valid cost corrections were made in
those cases where the individuals involved in authorizing
and/or preparing the cost corrections were no longer
available.

As discussed in Section IV., BACKGROUND, of this report,
LANL can perform work-for-other Federal agencies as long as
the work is performed consistent with the terms of Contract
No. W-7405-ENG-36 and applicable DOE rules and regulations.
Modification No. M359 to this contract, effective
October 1, 1992, modified the previous WFO clause and added
a clause, Article VII, CL.18, which specifically requires
the University to maintain effective systems of management
controls.

DOE, under Article III, CL.4, WORK-FOR-OTHERS (SPECIAL),
Part(b), of the contract, has authorized LANL, in some
instances, to incur cost overruns on WFO projects. We,
therefore, expected management controls over WFO costs to
have been strengthened in FY 1993. Based on the above
examples, it is our opinion that the management systems in
use during both Fiscal Years 1992 and 1993 reflected an
absence, or lack of implementation, of selected management
controls. We therefore concluded that LANL's management
systems for controlling cost overruns on WFO projects could
be more effective.

     Recommendations

     We recommend that the Manager, Albuquerque Operations
Office:

     4.   Review WFO Program Code R51A's financial transactions
for FY 1993. Obtain reimbursement from the University
of California, in accordance with Article III, CL.4,
of Contract No. W-7405-ENG-36, for cost overruns
verified during your review, including those cost
overruns identified in this report.

5.   Direct LANL to review its management systems for
ensuring financial integrity of and controlling cost
overruns on WFO projects, and take actions to ensure
that necessary management controls are in place and
properly implemented.

6.   Direct LANL to revise the Financial Management
Handbook to require that written supporting
documentation for cost corrections be developed and
retained as appropriate.

The Director, AL-Financial Management Division, concurred
with Recommendations 4 through 6, and offered additional
comments which are provided below.

Recommendation 4. "A review of [WFO Program Code] R51A's
charges will be performed to determine if appropriate
settlement are [sic] in accordance with the UC [University
of California] contract clause. The review is scheduled to
be completed by June 30, 1995."

Recommendation 5. "A directive will be issued to LANL by
January 1, 1995. As we have stated earlier, LANL has made
continuous progress in strengthening the internal controls
for the WFO programs, including WFO cost overruns. A new
duty for the Budget Group and WFO coordinator, will be to
visit each LANL group working on the WFO projects. During
the meeting, the importance of effective management of WFO
costs will be thoroughly explained and the cost controls
reiterated. In addition, the WFO Cost Control Program will
be presented to the Cost Working Group of the Laboratory
Leadership Council for further review and suggestion."

Recommendation 6. "LANL will institute in FY 1996 a
revision to the Financial Management Handbook to require
that written supporting documentation for cost corrections
be developed and retained in the division making the
correction. A directive will be issued to LANL by
January 1, 1995."

     PARTIAL FINANCING OF A LANL WFO PROJECT DURING FISCAL
YEAR 1992
     We found, for the FY 1992 Laboratory Directed Research and
Development rebate, that LANL had rebated $288,812, the
entire amount for a category of WFO projects, to WFO
Program Code R51A. We calculated that, if the rebate was
prorated to all WFO projects in the category, the project
should have only received a rebate of approximately
$46,000. Therefore, other WFO customers' projects within
this category were inappropriately charged approximately
$243,000, while R51A's funds were improperly supplemented
by the same amount. These actions were contrary to
provisions in the then DOE Order 2200.6, Chapter IX, which
directed that DOE should not finance reimbursable work from
another customer's funds, but only from the appropriation
accounts of the ordering Federal agency.

     LDRD Background Information

     DOE Order 5000.4A, "Laboratory Directed Research and
Development," was issued as a replacement to DOE Order
5000.4 on April 9, 1992. The Order establishes the
Department's policy and guidelines for providing its
multiprogram laboratories with an opportunity to fund new
and highly innovative research activities through the LDRD
program.

     LDRD is basic and applied research and development which
focuses on early exploration and exploitation of creative
and innovative concepts selected at the discretion of the
laboratory director. DOE policy is to permit each
multiprogram laboratory to carry out a limited amount of
LDRD to enhance the ability of the laboratory to address
the future mission objectives of DOE. DOE's purpose is
thus accomplished by providing the laboratories with the
flexibility to support new science and technology ideas to
determine their worth and a mechanism which is a major
factor in achieving and maintaining staff excellence.

     LANL's FY 1992 LDRD Rebate

     The Executive Summary of the FY 1992 Program Plan for
LANL's LDRD program requested approval for a budget of
$60,420,000, equivalent to six percent of LANL's estimated
budget ceiling for the year. We were told that, nearing
the end of this fiscal year, LANL officials determined that
LDRD would be overcollected for FY 1992. On September 30,
1992, LANL rebated $3,500,000 to selected LANL accounts and
projects for this LDRD overcollection.

     The FY 1992 LDRD rebate was distributed based on a
percentage of each major Budget and Reporting
classification's (B&R) salaries and fringes. Seven major
B&Rs were funded at LANL in FY 1992, including the B&R
category "other WFO." We counted eleven WFO customers in
the "other WFO" B&R, as having work done at LANL during the
fiscal year.

     We were told that LANL management decided to rebate to only
one funded WFO project, WFO Program Code R51A, in the
"other WFO" B&R. Therefore, WFO Program Code 51A received
the entire "other WFO" B&R rebate of $274,275, plus an
additional $14,537 in division support tax, (i.e.,
divisional overhead,) for a total rebate of $288,812. We
calculated that the R51A LDRD rebate, including division
support tax, should have been approximately $46,000 if the
rebate had been prorated to all "other WFO" customers, in
proportionate shares. (Note: The R51A customer agency
also had work done under WFO Program Code R95M.)

     As stated in previous findings, WFO Program Code R51A had
funding problems during the life of the project. The
"FY 1992 Program History List by Month for WFO Program Code
R51A" showed the project being out of money during the
months of June, July, and August 1992. Further, a LANL
internal memorandum from a LANL financial analyst to the
project program manager, dated August 13, 1992, showed that
the project was one hundred percent obligated. Even with
the funding supplement generated by the LDRD rebate, our
analysis showed that WFO Program Code R51A continued to be
in a cost overrun situation throughout much of FY 1993,
when the project was terminated by the customer agency.

     DOE Guidance Not Followed

     The then DOE Order 2200.6, Chapter IX, required WFO project
costs to be monitored and directed that other customer
funds should not be used for another WFO project.
Paragraph 2.d.12 stated "Funds provided under reimbursable
agreements are to be used solely for the intended purposes
and in accordance with the legal and other limitations
imposed on the use of funds as specified in the
agreements." Further, Paragraph 2.i.(1)(e) stated that
"DOE shall not finance reimbursable work from its own
appropriations or another customer's funds but only from
the appropriation accounts of the ordering Federal
agency . . . ."

     Because LANL credited the "other WFO" B&R's LDRD rebate to
only WFO Program Code R51A, other customers' funds were
inappropriately used to partially finance that project's
reimbursable work. We believe that LANL should have
totaled each "other WFO" customer's contribution to LDRD in
FY 1992 and given a proportional rebate to each customer,
even if funds were only rebated to a single project in the
case of customers with multiple WFO projects.

     At a meeting with LANL officials on February 9, 1994, a FMD
official stated LANL was anticipating an overcollection of
LDRD for FY 1994 and would have to rebate this
overcollection back to the major B&Rs as was done in FY
1992. In our opinion, LANL should allocate the WFO portion
of the rebate back to all WFO customers, not just to one or
more selected WFO customer(s).

     Conclusion

     We found, for the FY 1992 LDRD rebate, that LANL had
rebated $288,812, the entire amount for a category of WFO
projects, to WFO Program Code R51A. We calculated that, if
the rebate was prorated to all WFO projects in the
category, the project should have only received a rebate of
approximately $46,000. Therefore, other WFO customers'
projects within this category were inappropriately charged
approximately $243,000, while R51A's funds were improperly
supplemented by the same amount.

     LANL management actions were not in accordance with
guidance in the then DOE Order 2200.6. While LANL may not
be able to go back and correct the FY 1992 LDRD rebate, we
believe that future rebates for LDRD overcollections should
be refunded, in proportionate shares, to all WFO customers
in the same manner in which LDRD funds were collected.

     Recommendation

     We recommend that the Manager, Albuquerque Operations
Office:

     7.   Direct LANL to take any appropriate action relative to
the FY 1992 LDRD rebate and to ensure future LDRD
rebates are refunded to all WFO customers in
proportionate shares.

     The Director, AL-Financial Management Division, concurred
with Recommendation 7. The Director stated that "A
directive will be issued to LANL by January 1, 1995,
emphasizing that future rebates for LDRD overcollections
should be refunded in proportionate shares to WFO customers
in compliance with their Cost Accounting Standards
Disclosure Statement."
